No. 19-968

In The

'Upieme Court of tfje ^niteb
Chike Uzuegbunam,et al.,
Petitioners,
V.

Stanley C. Preczewski,et al.,
Respondents,

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of the
Foundation for Individual Rights in Education as Amicus Curiae in Support of
Petitioners in the above-captioned case contains 4,528 words, excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d).
1 declare under penalty of perjury that the foregoing is true and correct.
Executed on March 4, 2020.

Tarek J. Austin
CoviNGTON & Burling LLP

One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202)662-0000
taustin@cov.com

